HHS/OIG, Audit -"Ryan White Title I Funds Claimed by a Primary Medical and Dental Contractor of the Las Vegas
Eligible Metropolitan Area for the Fiscal Year Ended February 28, 2002,"(A-09-03-01013)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Ryan White Title I Funds Claimed by a Primary Medical and Dental Contractor of the Las Vegas Eligible Metropolitan
Area for the Fiscal Year Ended February 28, 2002," (A-09-03-01013)
February 28, 2005
Complete Text of Report is available in PDF format (508 kb).
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine if the Health District, a Ryan White CARE Act Title I
grantee, ensured that the Wellness Center, one of its contractors, (1) provided the expected program services and (2) followed
Federal requirements for claiming program costs under CARE Act Title I.  The Health District could not ensure that
the Wellness Center provided an expected level of program services with the $868,661 it was awarded.  Further, the
Health District did not ensure that the Wellness Center followed Federal requirements for claiming program costs.  Specifically,
the Wellness Center did not use actual costs as its basis to charge the program, assessed clients higher copayments than
appropriate, did not separately account for copayments collected and did not use the funds to provide additional program
services, and claimed $26,760 in unallowable costs.  We recommended that the Health District refund the $26,760 and
specify a level of expected program services in its contract with the Wellness Center.  In addition, the Health District
should ensure that the Wellness Center bills for services based on actual costs, charges appropriate copayments, tracks
copayments collected and uses the revenue to provide additional services, and follows its eligibility policies and procedures.  The
Health District agreed with several of our recommendations, but did not agree with our recommendations to refund the $26,760
or require the Wellness Center to charge based on actual costs.